<html>
<title> - THE RACE TO 5G AND ITS POTENTIAL TO REVOLUTIONIZE AMERICAN COMPETITIVENESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      THE RACE TO 5G AND ITS POTENTIAL TO REVOLUTIONIZE AMERICAN 
                            COMPETITIVENESS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2017

                               __________

                           Serial No. 115-79
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                   
                   
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-453                      WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>                   
                   
                   
                   
                   
                
                   
                   
                   COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     2
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Susan W. Brooks, a Representative in Congress from the State 
  of Indiana, prepared statement.................................    10
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, prepared statement..............................    10

                               Witnesses

Chris Pearson, President, 5G Americas; Coleman Bazelon, 
  Principal, Brattle Group.......................................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................   131
Coleman Bazelon, Principal, Brattle Group........................    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................   134
Jonathan Adelstein, President and CEO, Wireless Infrastructure 
  Association....................................................    32
    Prepared statement...........................................    34
    Answers to submitted questions...............................   138
Shireen Santosham, Chief Innovation Officer, City of San Jose....    45
    Prepared statement...........................................    47
David Broeker, Founding CEO, Indiana Biosciences Research 
  Institute......................................................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................   140

                           Submitted Material

Op-ed by Sam Liccardo entitled, ``Why Does Verizon Care About 
  Telephone Poles?'' The New York Times, October 3, 2017.........    82
White paper from the Brattle Group entitled, The Next Wave of 
  Spectrum Reallocation: The Value of Additional Mid-Band 
  Spectrum Reallocations.........................................    86
Letter of November 15, 2017, from Kevin Davis, Mayor of Hardin 
  County, Tennessee, to Hon. Marsha Blackburn....................   127
Statement of the Federal Communications Commission...............   128

 
      THE RACE TO 5G AND ITS POTENTIAL TO REVOLUTIONIZE AMERICAN 
                            COMPETITIVENESS

                              ----------                              


                      THURSDAY, NOVEMBER 16, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:58 a.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Costello, Walden (ex officio), Doyle, Welch, 
Loebsack, Ruiz, Dingell, Rush, Eshoo, Matsui, McNerney, and 
Pallone (ex officio).
    Also Present: Representative Duncan.
    Staff Present: Jon Adame, Policy Coordinator, 
Communications and Technology; Ray Baum, Staff Director; 
Samantha Bopp, Staff Assistant; Kelly Collins, Staff Assistant; 
Robin Colwell, Chief Counsel, Communications and Technology; 
Sean Farrell, Professional Staff, Communications and 
Technology; Margaret Tucker Fogarty, Staff Assistant; Adam 
Fromm, Director of Outreach and Coalitions; Gene Fullano, 
Detailee, Communications and Technology; Theresa Gambo, Human 
Resources/Office Administrator; Elena Hernandez, Press 
Secretary; Zach Hunter, Director of Communications; Tim Kurth, 
Senior Professional Staff, Communications and Technology; 
Lauren McCarty, Counsel, Communications and Technology; Alex 
Miller, Video Production Aide and Press Secretary; Dan 
Schneider, Press Secretary; Evan Viau, Legislative Clerk, 
Communications and Technology; Hamlin Wade, Special Advisor, 
External Affairs; and Everett Winnick, Director of Information 
Technology.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will come to order just a little bit on the early 
side of 10:00 o'clock. The chair now recognizes herself for 5 
minutes for an opening statement.
    I want welcome everyone to the first hearing of this year 
that is devoted exclusively to the promise of fifth generation 
wireless service, or 5G, and to explore the potential 
impediments to its deployment and wide-scale development.
    In the interest of time, I will submit my full opening 
statement for the record. Suffice it to say, the race to 5G is 
on across the world as we compete with other countries and 
regions. As in any competition, one can either lead, follow, or 
get out of the way. As chairman of the subcommittee, I look 
forward to working on a bipartisan basis to ensure that America 
is first to the finish line.
    At this time I recognize the subcommittee ranking member, 
Mr. Doyle, for 5 minutes for an opening statement.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the committee's first hearing this year devoted 
exclusively to the promise of fifth generation wireless 
service, or ``5G,'' and to explore the potential impediments to 
its development and wide-scale deployment. It is imperative 
Congress tackle these challenges. This hearing is entitled: 
``The Race to 5G and its potential to Revolutionize American 
Competitiveness.'' Let there be no mistake, the race to 5G is 
on across the world; and as in any competition, one can either 
lead, follow, or get out of the way. As Chairman of this 
Subcommittee, I look forward to working on a bipartisan basis 
to ensure America is first to the finish line.
    The promise of 5G cuts across diverse industries and 
sectors of the economy. The potential benefits include: 
enhanced mobile broadband that can provide speeds that are 10 
to 100 times faster than what exists today; ultra-low latency 
communications that are necessary for mission-critical 
applications like autonomous vehicles and remote surgery; and 
the massive machine-to-machine communications that constitute 
the ``Internet of Things.'' According to Cisco, there will be 
nearly 50 billion IoT devices connected by the year 2020. Taken 
together, the applications of 5G promise to revolutionize 
manufacturing, healthcare, transportation, city management, 
power generation and distribution, as well as law enforcement 
and emergency response.
    As we gaze towards the promise of 5G, we must also be 
mindful of the impediments to its deployment. Potential speed 
bumps along the way pertain to the harmonization of 
international technical standards, the availability of 
spectrum, and the strangling red tape of small cell siting 
requirements at the federal, state, and local levels.
    Importantly, we must keep in mind that 5G is only part of 
the communications landscape that will ensure our 
competitiveness moving forward. 5G networks will exist 
alongside LTE networks, unlicensed spectrum necessary for Wi-
Fi, as well as traditional cable and landline networks, fiber 
optics, as well as satellite technologies. Each of these will 
continue to play prominent roles as our nation transitions to 
5G wireless connectivity.
    Information is power, and history makes clear that 
countries with the best communications have the highest 
economic growth, and a distinct competitive advantage. 5G will 
play a major part in continuing our nation's leadership in 
communications. I am pleased to convene this hearing to explore 
the promise of 5G, and to examine the challenges to its 
development and deployment. I look forward to the testimony of 
our witnesses.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair.
    And I just want to comment that today is a notice for 
Pancreatic Cancer Awareness Month. And I see some of our 
friends in the audience and colleagues wearing purple today. 
And I just want to recognize that and acknowledge what a 
terrible disease that is, and hope we find a cure someday.
    Chairman, thank you for holding the hearing. And I want to 
thank all the witnesses here before us.
    I believe that 5G holds a lot of promise and a lot of 
potential to drive American innovation, competitiveness, and 
productivity. But before I get into that, there are a few 
matters that I think need to be mentioned related to the FCC 
and their open meeting and reports of their plans to vote for 
repeal of the Open Internet Order as part of next month's open 
meeting.
    In regard to this month's open meeting agenda, many 
members, myself included, have expressed grave concerns about 
the Chairman's agenda and the impact that it will have on media 
ownership, the Lifeline Program, and the ATSC 3.0 broadcast 
transition, or lack thereof, and the Commission's item on 
copper retirement.
    Each one of these items is terrible in its own right and 
will have grave impacts to the public. I would urge the 
Chairman to delay voting these items and seek bipartisan 
consensus and to chart a path forward that benefits all 
Americans, not just the biggest companies.
    In regards to next month's open meeting and widely reported 
rumors that Chairman Pai plans to repeal the Open Internet 
Order, I would tell him to stop and consider the broader 
consequences.
    The success of the internet and the internet ecosystem has 
to be based on open access and a level playing field where 
consumers can access the services they want and edge providers 
can access customers without having to pay to get permission 
from gatekeepers or having to pay tolls.
    Removing these rules removes this essential protection and 
threatens the virtuous cycle of investment and innovation that 
has made the internet what it is today.
    So putting that aside, and to the matter at hand, 5G, next-
generation wireless networks have incredible potential to 
revolutionize our economy and our way of life. Think back to 
2007 and 700 megahertz auction. The iPhone has just been 
introduced, but the promise of smartphone technology and 
ubiquitous high-speed access was still just a dream.
    When Steve jobs announced the iPhone, it had to be 
connected to WiFi because 3G networks at the time weren't 
responsive enough. But today, nearly 80 percent of Americans 
own smartphones, and the global app economy has grown to be 
worth more than $1.6 trillion a year globally.
    In the same way that LTE has put the internet in our 
pockets, 5G has the potential to connect every aspect of our 
lives. From smart transportation and self-driving vehicles, to 
connected medical devices and predictive diagnosis, to virtual 
and augmented reality, the promise of 5G has the potential to 
bring these technologies into reach.
    But to get to this promised land and to bring the future 
into the present, we need to chart a course that facilitates 
this technology by making new spectrum available and easing the 
deployment of new wireless infrastructure. My hope is that we 
can advance bipartisan legislation to free up additional 
spectrum to meet the needs of licensed and unlicensed 
industries.
    On the other hand, I have seen draft legislation in the 
Senate, proposals at the State level, and heard rumblings from 
the FCC and their Broadband Deployment Advisory Council that 
all seek to preempt local government with a heavy hand.
    To me, these approaches are all stick and no carrot. We 
need an approach that is collaborate, and we need to bring 
State and local governments into these discussions in a more 
productivity way.
    I am happy to see a representative from San Jose here 
today. Reading your testimony, I see that your city has big 
plans: self-driving vehicles, smart infrastructure, and using 
technology to meet the challenges you face. I am proud to say 
we have been doing all of this in Pittsburgh for quite a while 
now, and I am glad to see Silicon Valley finally catching up.
    My point is that great innovation is happening in cities 
all across the country, and local governments in cities like 
Pittsburgh, San Jose, and so many others have risen to meet 
these challenges. They don't need someone to run roughshod over 
them. They need partners that will help them meet the needs of 
their citizens.
    I believe that there is much this committee can do to 
facilitate the deployment of 5G and wireless broadband. My hope 
is that we can do in a that way that is thoughtful and 
inclusive.
    Madam Chair, I thank you, and I yield back.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you Chairman Blackburn for holding this hearing and 
thank you to all of the witnesses for appearing before us.
    I believe that 5G holds a lot of promise and a lot of 
potential to drive American innovation, competitiveness, and 
productivity. But before I get into that, there are a few 
matters that I think need to be mentioned related to the FCC 
and their Open Meeting today, and reports of their plans to 
vote to repeal the Open Internet Order as part of next month's 
Open Meeting.
    In regards to this month's open meeting agenda, many 
Members, myself included, have expressed grave concerns about 
the Chairman's agenda and the impact that it will have on media 
ownership, the lifeline program, the ATSC3 broadcast 
transition, or lack thereof, and the Commission's item on 
copper retirement.
    Each one of these items is terrible in its own right and 
will have grave impacts on the public. I would urge the 
Chairman to delay voting these items and seek bipartisan 
consensus--and to chart a path forward that benefits all 
Americans and not just the biggest companies.
    In regards to next month's open meeting, and widely 
reported rumors that Chairman Pai plans to repeal the Open 
Internet Order, I would tell him to stop and consider the 
broader consequences. The success of the Internet and the 
Internet Ecosystem has be based on open access and a level 
playing field, where consumers can access the services they 
want, and edge providers can access customers without having to 
get permission from gatekeepers or having to pay tolls. 
Removing these rules removes this essential protection--and 
threatens the virtuous cycle of investment and innovation that 
has made the Internet what it is today.
    Putting that aside, and to the matter at hand--5G.Next 
generation wireless networks have incredible potential to 
revolutionize our economy and our way of life. Think back to 
2007 and the 700 Mega-hertz auction. The iPhone had just been 
introduced, but the promise of smartphone technology and 
ubiquitous high speed access was still a dream. When Steve Jobs 
announced the iPhone, it had to be connected to Wi-Fi because 
3G networks at the time weren't responsive enough. But today, 
nearly 80% of Americans' own smartphones and the global App 
economy has growth to be worth more than $1.6 trillion a year 
globally.
    In the same way that LTE has put the internet in our 
pockets, -G has the potential to connect every aspect of our 
lives--from smart transportation and self-driving vehicles, to 
connected medical devices and predictive diagnosis, to virtual 
and augmented reality; the promise of 5G has the potential to 
bring these technologies into reach.
    But to get to this promised land and bring the future into 
the present, we need to chart a course that facilitates this 
technology by making new spectrum available and easing the 
deployment of new wireless infrastructure. My hope is that we 
can advance bipartisan legislation to free up additional 
spectrum to meet the needs of the licensed and unlicensed 
industries.
    On the other hand, I've seen draft legislation in the 
Senate, proposals at the state level, and heard rumblings from 
the FCC and their Broadband Deployment Advisory Council, that 
all seek to pre-empt local government with a heavy hand.
    To me these approaches are all stick and no carrot. We need 
an approach that is collaborative, and we need to bring state 
and local governments into these discussions in a more 
productive way.
    I'm happy to see a representative from San Jose here today. 
Reading your testimony, I see that your city has big plans: 
self driving vehicles, smart infrastructure, and using 
technology to meet the challenges you face. I'm proud to say 
we've been doing all this in Pittsburgh for a while now--and 
I'm glad to see Silicon Valley finally catching up.
    My point is that great innovation is happening in cities 
across the country, and local governments in cities like 
Pittsburgh, San Jose, and so many others have risen to meet 
these challenges. They don't need someone to run rough-shod 
over them; they need partners that will help them meet the 
needs of their citizens.
    I believe there is much this Committee can do to facilitate 
the deployment of 5G and wireless broadband. My hope is that we 
can do so in a thoughtful and inclusive way.

    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize the chair of the full committee, 
Mr. Walden.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair.
    And I have a very serious question for the gentleman from 
Pennsylvania. Do you know the way to San Jose?
    That was an old song, for those of you who are kind of new 
to this. The old radio guy in me coming out here. Do you want 
to sing it?
    OK. I want to welcome our witnesses. Thanks for being here 
today. We really value your testimony as we learn a lot about 
the fifth generation wireless technology, often called 5G. So 
thanks for being here, and thanks for your testimony.
    This is going to revolutionize America's competitiveness. 
In the interest of saving time, I will submit the whole 
statement for the record. But the chairman of the subcommittee 
is correct, we are in a global race to develop and deploy 5G 
networks. Let there be no mistake: The race to 5G is a sprint, 
not a marathon. Even as we speak, competitors in Europe, Asia, 
and elsewhere are working to steal the mantle when it comes to 
having the best, most robust, and fastest communication 
networks.
    I do want to make one point regarding the promise of 5G to 
our competitiveness in manufacturing, healthcare, energy, smart 
cities, and autonomous transportation. None of the applications 
enabled by 5G technology will be possible without adequate 
spectrum, and all the rhetoric around the race to 5G will be 
for nothing if we do not update the Communications Act to allow 
the Federal Communications Commission to deposit upfront 
payments from prospective spectrum auction bidders directly 
with the Treasury.
    Current law prevents the Commission from doing so. So I 
want to applaud the chairman of this subcommittee for including 
provisions in the FCC reauthorization bill to allow the 
Commission to do so.
    I also want to recognize the bipartisan work of 
Representatives Guthrie and Matsui in introducing standalone 
legislation to do the same thing. Thank you for that. I think 
we are all on the same page here.
    But let me be clear. Absent a change in law, the FCC can't 
hold any auction of consequence to bring about the 5G 
revolution that we must encourage. So we all need to work 
together on a bipartisan basis to change that law so the 
Commission can again hold meaningful spectrum auctions. The 
inability to do so will mean the loss of billions in auction 
proceeds for deficit reduction.
    So, anyway, thank you for being here. Thanks for your 
testimony.
    And, Madam Chair, with that, I will yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Madame Chairman. I want to welcome our witnesses 
to this hearing on fifth generation wireless technology, often 
called ``5G,'' and its potential to revolutionize American 
competitiveness.
    The Chairman of the Subcommittee is correct--we are in a 
global race to develop and deploy 5G networks. Let there be no 
mistake: the race to 5G is a sprint, not a marathon. Even as we 
speak, competitors in Europe, Asia, and elsewhere are working 
to steal the mantle when it comes to having the best, most 
robust, and fastest communications networks.
    Mobile, cellular technology was developed in the United 
States first. We have seen it evolve from first generation 
networks that were only capable of voice service, to digital 
second-generation networks capable of voice and text, to third 
generation networks capable of voice, text, and basic Internet, 
to today's fourth generation LTE networks that unleashed true 
mobile broadband and video service. Approximately every 10 
years American consumers have seen a generational leap in 
wireless connectivity and applications. Just as we were the 
first to deploy mobile technology, so we must be first to 
deploy 5G throughout the ecosystem of networks, services, and 
applications that constitute our communications architecture.
    So, what is 5G? In short, 5G represents the next 
generational shift that will provide broadband speeds faster 
than existing wireless networks by at least an order of 
magnitude. It will do so by combining existing low- and mid-
band spectrum with higher, millimeter-band frequencies 
previously thought to be unusable for mobile broadband. It is 
only through combining low-, mid-, and high-band spectrum that 
we can realize the full promise of 5G in urban, suburban, and 
rural areas.
    It's been noted that 5G will enable enhanced mobile 
broadband, ultra-low-latency, and massive machine-to-machine 
communications. Examples of these benefits are in power 
generation and distribution through smart grid technology such 
as sensors on substations to report outages, as well as supply 
and demand readings on transmission lines that will allow 
dynamic pricing on smart home meters--potentially saving 
consumers hundreds of dollars annually on their power bills. We 
also anticipate increased efficiencies in the manufacturing 
sector through the application of 5G enabled sensors, 
controllers, and data analytics that allow for greater 
automation, predictive maintenance, and supply chain 
management.
    One of the most prominent examples of 5G applications is in 
autonomous vehicles. Earlier this year, our committee, and then 
the full House, unanimously voted for the first self-driving 
car legislation ever considered by Congress--the SELF DRIVE 
Act. This bill is critical to the development and deployment of 
self-driving car technology, which has the potential to save 
tens of thousands of lives each year. But the regulatory 
certainty provided by the SELF DRIVE Act will depend on the 
availability of spectrum. If America is to win the race to 5G, 
then we must figure out how to make more spectrum available for 
commercial service in addition to the regulatory reforms and 
international harmonization necessary to making this technology 
a reality.
    Lastly, and most importantly, I want to emphasize that all 
the rhetoric around the race to 5G will be for nothing if we do 
not update the Communications Act to allow the Federal 
Communications Commission (FCC) to deposit upfront payments 
from prospective spectrum auction bidders directly with the 
Treasury. Current law prevents the Commission from doing so. I 
want to applaud the Chairman of this Subcommittee for including 
provisions in the FCC Reauthorization bill to allow the 
Commission to do so. I also want to recognize the bipartisan 
work of Representatives Guthrie and Matsui in introducing 
stand-alone legislation to do the same thing. Let me be clear: 
absent a change in law, the FCC cannot hold any auction of 
consequence to bring about the 5G revolution. We must all work 
together on a bipartisan basis to change the law, so the 
Commission can again hold meaningful spectrum auctions. The 
inability to do so will mean the loss of billions in auction 
proceeds for deficit reduction.

    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize the ranking member of the full 
committee, Mr. Pallone, for 5 minutes for an opening.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman.
    This Congress, Democrats on this committee have focused on 
protecting security, providing economic opportunities, and 
promoting democracy. Faster wireless networks have a potential 
to do all three.
    These technologies can make us safer by helping first 
responders react faster after an emergency or disaster. They 
can offer economic opportunity by helping people apply for jobs 
or train for a new career. And they can improve civic 
engagement by keeping people better connected with their 
government.
    People increasingly connect to the government using only 
their smartphones. That is especially true for the most 
vulnerable among us. Unfortunately, when they try to reach 
their government for help, too often they find Web sites that 
do not work on their mobile devices.
    And that is why I introduced the Connected Government Act 
earlier this year with Congresswoman Robin Kelly that was 
passed by the full House last night. Our bill ensures that all 
new Federal agency Web sites are designed to work well on 
mobile devices.
    And today I will look forward to discussing other ways that 
5G networks can serve all of our communities. While we have 
heard a lot this year about the importance of broadband in 
rural areas, today's hearing focuses on new technologies best 
designed for urban centers. These 5G technologies could present 
new opportunities for low-income Americans in urban areas who 
often struggle to pay for their connections.
    And I know that some say that speeding deployment of these 
networks means that we must sacrifice environmental 
protections, that we must undermine tribal sovereignty, and 
that we need to block our local governments. But I urge my 
colleagues to look passed these naysayers. Let's find a path 
that promotes broadband deployment while still respecting the 
public interest.
    And I believe that the LIFT America Act, which was 
introduced by the Democrats on this committee earlier this 
year, does just that. Our bill ensures high-speed broadband 
deployment to 98 percent of the country without jeopardizing 
the environment, city governments, or tribal rights.
    It is unfortunate that while we are working here today to 
bring high-speed wireless broadband to urban areas, the FCC is 
working against us. As we speak, they are voting to kill the 
Lifeline Program as we know it, effectively taking wireless 
phones out of the hands of the people who need them the most. 
They are acting to senselessly cut the wireless lifeline to 7.3 
million Americans. And that is cruel, particularly when some of 
those Americans live in places that are still recovering from 
natural disasters.
    So I hope they reconsider and work with Congress to help 
those who need it most. Mr. Doyle talked about all the terrible 
things that we expect from the FCC over the next days or weeks, 
and I want to join in his comments.
    But with that, I thank the witnesses.
    And I would like to yield the rest of my time, half to 
Congresswoman Matsui, and other half to Congressman McNerney. 
So I yield now to Congresswoman Matsui.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Madam Chairman. This Congress, Democrats on this 
Committee have focused on protecting security, providing 
economic opportunities, and promoting democracy. Faster 
wireless networks have the potential to do all three.
    These technologies can make us safer by helping first 
responders react faster after an emergency or a disaster. They 
can offer economic opportunity by helping people apply for jobs 
or train for a new career. And they can improve civic 
engagement by keeping people better connected with their 
government.
    People increasingly connect to the government using only 
their smartphones. That's especially true for the most 
vulnerable among us. Unfortunately, when they try to reach 
their government for help, too often they find Web sites that 
do not work on their mobile devices.
    That's why I introduced the Connected Government Act 
earlier this year with Congresswoman Robin Kelly that was 
passed by the full House last night. Our bill ensures that all 
new federal agency Web sites are designed to work well on 
mobile devices.
    Today, I look forward to discussing other ways that 5G 
networks can serve all of our communities. While we have heard 
a lot this year about the importance of broadband in rural 
areas, today's hearing focuses on new technologies best 
designed for urban centers. These 5G technologies could present 
new opportunities for low-income Americans in urban areas who 
often struggle to pay for their connections.
    I know that some say that speeding deployment of these 
networks means that we must sacrifice environmental 
protections, that we must undermine tribal sovereignty, and 
that we need to block our local governments. But I urge my 
colleagues to look past these naysayers. Let's find a path that 
promotes broadband deployment while still respecting the public 
interest.
    I believe that the LIFT America Act-which was introduced by 
the Democrats on this Committee earlier this year-does just 
that. Our bill ensures high-speed broadband deployment to 98 
percent of the country, without jeopardizing the environment, 
city governments, or tribal rights.
    It is unfortunate that while we are working here today to 
bring high-speed wireless broadband to urban areas, the FCC is 
working against us. As we speak, they are voting to kill the 
Lifeline program as we know it, effectively taking wireless 
phones out of the hands of the people who need them the most. 
They are acting to senselessly cut the wireless lifeline to 7.3 
million Americans. That's cruel, particularly when some of 
those Americans live in places that are still recovering from 
natural disasters. I hope they reconsider and work with 
Congress to help those who need it most.
    With that, I thank the witnesses, and I would like to yield 
one minute of time to Congresswoman Matsui and one minute of 
time to Congressman McNerney.

    Ms. Matsui. Thank you, Ranking Member Pallone.
    Additional spectrum will be critical for both 5G and 
advancements in technology and innovation. Carriers and 
broadband providers will need to find creative ways to free up 
bandwidth to meet consumer needs in a 5G-and-beyond world. This 
would be necessary to account for the Internet of Things 
economy, autonomous vehicles, virtual reality, and new 
innovations that we have yet to hear about.
    A realistic 5G-and-beyond strategy will need to be creative 
and will not be a one-size-fits-all solution. I think that 
technologies like blockchain could play an interesting role for 
spectrum sharing and one that could potentially maximize the 
efficient use of spectrum bands.
    Thank you. And I yield to Mr. McNerney.
    Mr. McNerney. Well, I thank the ranking member, and I thank 
my friend and colleague from Sacramento.
    I am basically going to repeat what the ranking member 
said. As we sit here today holding a hearing about increasing 
connectivity, the FCC is voting on an item that would do just 
the opposite; namely, a proposal to dismantle the Lifeline 
Program.
    This will disconnect millions of low-income Americans. In 
my district alone, there are more than 56,000 households that 
participate in the Lifeline Program. The FCC Chairman's 
proposal will be absolutely devastating for those folks.
    We all have constituents who rely on this program for 
essential communication services, all of us have constituents, 
such as getting in touch with family and friends and obtaining 
help during emergencies. We owe it to our constituents to help 
them stay connected.
    While I look forward to the hearing and I appreciate the 
witnesses coming today, I can't help but think about how today 
will be a serious step backward for connecting Americans.
    Mr. Chairman, I yield back.
    Mr. Pallone. And I yield back, Madam Chairman.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Walden. Madam Chair.
    Mrs. Blackburn. Mr. Walden, you are recognized.
    Mr. Walden. Well, with the indulgence of the committee, 
today likely marks the last day of one of our veteran staff 
members, David Redl, who has worked for the committee for the 
last 7 years, was my chief counsel on the telecommunications 
subcommittee, and continued on in that role under our current 
chairwoman until the administration decided to pluck him from 
us, rather slowly. But that was the Senate, actually. The 
Senate was slow.
    But they have now confirmed him, and we have every reason 
to believe the President will sign the paperwork today and 
David Redl will go off into the administrative landscape of the 
NTIA where he will be on a completely faithful search for more 
spectrum to free up and make available.
    So if we could honor our staffer, David Redl.
    [Applause.]
    Mr. Walden. And with that, Madam Chair, I yield back. And 
we get back his section of the payroll, too. So thank you.
    Mrs. Blackburn. That is correct. And we wish Mr. Redl well. 
And we should send our friends in the Senate a case of Red Bull 
and encourage them to work more expeditiously as they approach 
the issues that he is going to handle for the administration.
    This concludes the member opening statements. The chair 
would like to remind members that, pursuant to the committee 
rules, all members' opening statements will be made a part of 
the record.
    At this point, I would like to ask unanimous consent to 
enter into the record the opening statement of Mrs. Brooks and 
other members who may want to submit.
    Without objection, so ordered.
    [The information follows:]

               Prepared statement of Hon. Susan W. Brooks

    Thank you, Mr. Chairman.
    I'm thrilled to be here today for this important hearing 
and would like to thank all of the witnesses for being here. 
I'm especially thrilled to have a Hoosier witness here, David 
Broecker, from the Indiana Biosciences Research Institute 
representing the great innovations occurring in our state.
    I have become increasingly engaged on efforts to empower 5G 
for a number of reasons. I'm proud that Indiana is one of 
thirteen states that have enacted state legislation to 
streamline the deployment of small cell networks, Indianapolis 
is an AT&T test site for 5G evolution build-out, and we have 
brilliant leaders like David working to innovate and build our 
communities.
    As the saying goes, innovation waits for no one, and for 
our economy to move at the speed of innovation, we must support 
new and emerging technologies. I recently co-founded the 5G 
Caucus with my colleague Congresswoman Debbie Dingell as a 
means to educate members and staff about how 5G will 
revolutionize our communities and the role we, as policymakers, 
need to play to empower 5G. Unfortunately, Congress isn't known 
for moving fast, and it is difficult for Congress to keep up 
with the speed of innovation.
    Establishing a pipeline of new spectrum auctions to help 
meet America's mobile needs, promoting infrastructure reform to 
unlock tens of billions in 5G investment, and ensuring that 
wireless operators have rights to access municipal 
infrastructure in a timely manner are all key aspects as we 
work to unleash the power of 5G. Any regulations we consider 
should act like guardrails--not roadblocks or speed bumps--so 
that 5G pioneers can create the next generation of advancements 
within the guardrails--instead of having to navigate around a 
roadblock that would stifle or even prohibit technologies that 
improve the way we live our lives.
    5G means the opportunity for faster emergency response 
times that can save lives, smart cities, remote surgery, and 
unleashing the potential of the anticipated 50 billion new 
internet of things connected devices coming online by 2020.
    I look forward to leading with Congresswoman Dingell on 
this issue and working together to advance sound policy that 
unlocks the economic potential of 5G and maintains and 
strengthens US leadership in next-generation technology.
                              ----------                              


                Prepared statement of Hon. Leonard Lance

    Thank you Madam Chairman and welcome to our distinguished 
panel. Thank you for being with us here today.
    Wireless services have come a long way over the last 50 
years. The jump in capabilities from the first iteration of 
cellular technology, developed largely from the work done at 
Bell Labs in New Jersey, to the current 4th Generation LTE has 
been immense. However, these past innovations pale in 
comparison to the potential 5G has to revolutionize wireless 
communications. From improved data rates and speeds for 
consumers, to commercial applications in industries such as 
health care, agriculture, energy, education and manufacturing, 
5G's potential applications are almost limitless.
    As countries around the globe compete to lead in 5G, the 
district I serve is a hub of 5G development, thanks to the 
companies such as Verizon, AT&T, Nokia, Qualcomm and Samsung. 
Because of companies like these, New Jersey is leading the 
effort to maintain the United States as the leader in wireless 
innovation.
    American companies have already invested billions of 
dollars into 4G LTE and as they continue to invest in 4G, they 
have promised to invest hundreds of billions more in 5G. 
According to a recent report by Accenture, Americans will use 
five times more mobile data in 2021 than they do now. 5G has 
the potential not only to help networks manage this 
unprecedented data demand, but also to add over 3 million jobs 
in the next seven years and support 22 million jobs by the year 
2035.
    However, private investment alone will not win us the 
global race to 5G. Policymakers in Congress and the Federal 
Communications Commission must pursue policies to create 
regulatory regime that is conducive to the deployment of 5G 
infrastructure and ensure there is sufficient spectrum 
available for commercial use to meet future needs. We must help 
facilitate innovation by fueling the spectrum pipeline and 
removing regulatory barriers to deployment.
    Wireless networks are complex and require a mix of 
different types of spectrum to meet coverage and capacity 
requirements. As our demand for wireless connectivity continues 
to skyrocket, the FCC and Congress must examine spectrum use in 
high, mid, and low bands.
    Thank you again for being with us here today and I look 
forward to your testimony and discussion on this important 
topic.

    Mrs. Blackburn. We want to thank our witnesses for being 
here today and taking the time to testify for the subcommittee 
and for preparing your testimony in advance.
    Today's witnesses are going to have the opportunity to give 
their opening statements, followed by a round of questions from 
the members. We are fully aware that we are on an abbreviated 
schedule for today as the President will arrive at 11:30 for 
the Republican Conference meeting.
    We want to welcome our witnesses. Chris Pearson, president 
of 5G Americas. Dr. Coleman Bazelon, principal of the Brattle 
Group. The Honorable Jonathan Adelstein, who has been with us 
so many times, former FCC Commissioner and the current 
president and CEO of the Wireless Infrastructure Association. 
Shireen Santosham, the chief innovation officer for the city of 
San Jose, California--and she does know the way to San Jose. 
David Broeker, the founding CEO of the Indiana Biosciences 
Research Institute.
    We appreciate that each of you are here today and for 
preparing your testimony.
    We will begin the panel with you, Mr. Pearson. You are 
recognized for 5 minutes for an opening.

 STATEMENTS OF CHRIS PEARSON, PRESIDENT, 5G AMERICAS; COLEMAN 
    BAZELON, PRINCIPAL, BRATTLE GROUP; JONATHAN ADELSTEIN, 
PRESIDENT AND CEO, WIRELESS INFRASTRUCTURE ASSOCIATION; SHIREEN 
  SANTOSHAM, CHIEF INNOVATION OFFICER, CITY OF SAN JOSE; AND 
   DAVID BROEKER, FOUNDING CEO, INDIANA BIOSCIENCES RESEARCH 
                           INSTITUTE

                   STATEMENT OF CHRIS PEARSON

    Mr. Pearson. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, thank you for having me here 
today. I am Chris Pearson, president of 5G Americas, an 
association representing mobile operators and vendors from 
around our region. 5G Americas' board of governors includes 
AT&T, Cisco, CommScope, Ericsson, HPE, Intel, Nokia, Qualcomm, 
Samsung, Sprint, and T-mobile.
    5G Americas is also a Market Representative Partner of the 
standards forum 3GPP, where 5G is being standardized, and works 
with regulators around the world.
    5G Americas represents our region in the Global 5G MOU 
Event twice a year in countries in Asia, Europe, and the 
Americas that are dedicated to winning the race to 5G. And next 
year, 5G Americas hosts our event here in the United States.
    5G, or fifth generation of wireless technology, is 
comprised of three use cases: enhanced or faster Mobile 
Broadband; Massive Machine Type Communications, also known as 
the Internet of Things; and Ultra-Reliable Low Latency 
Communications, often called critical communications.
    So 5G is just not about faster broadband, although it would 
be nice to download that movie in seconds before you board that 
plane. It is about other things as well. Machine Type and 
critical communications will enable connected, autonomous 
vehicles and revolutionize our industries and lives with 
enhanced productivity, smarter cities and homes, safer roads, 
and more effective healthcare. Our industry is expected to 
invest $275 billion in 5G, resulting in $500 billion in GDP 
growth and millions of new jobs.
    But this revolution requires more spectrum and efficient 
siting of wireless facilities. So we are grateful for this 
subcommittee's leadership on spectrum and its continued focus 
on ensuring that there is adequate spectrum for 5G.
    We support Mr. Guthrie and Ms. Matsui's spectrum auction 
receipts bill, which the FCC needs to hold any further auction, 
and urges the committee to act on that quickly.
    Spectrum will be required for 5G in every range, low band, 
mid-band, and high band. Other countries around the world are 
making mid-band available for 5G, and the U.S. should, too.
    The countries that make new globally harmonized spectrum 
available for 5G are the ones that are going to lead this race. 
And thanks to this subcommittee, the U.S. led the way in 4G 
because it made new spectrum available for auction at 700 
megahertz and also in the mid-bands.
    To create the global economies of scale that benefit U.S. 
consumers and businesses, we must have globally harmonized 
spectrum for 5G. In addition to allocating sufficient amounts 
of harmonized low-, mid-, and high-band spectrum, the U.S. must 
expedite siting procedures for the small cells that will be 
necessary for 5G. And for this reason, 5G Americas also 
supports the MOBILE NOW bill.
    Mobile data traffic is expected to grow seven to eight 
times in just a few short years, and meeting that demand will 
require operators to densify their networks, requiring 
streamlined procedures for all those new small cells. As we 
will hear from Mr. Adelstein, we must have model siting 
procedures that allow network densification.
    5G Americas supports the FCC's work in its BDAC advisory 
council bringing together stakeholders to recommend model codes 
for State and local government siting. And as necessary, should 
that effort not result in the streamlined siting required for 
U.S. leadership, 5G Americas supports this Congress or the FCC 
for establishing some sort of national standards for small cell 
siting.
    Additionally, 5G Americas supports the FCC's order on 
eliminating separate historic review for replacement poles. 5G 
Americas urges the FCC to do even more to eliminate unnecessary 
reviews in rights-of-way without affecting the historic areas.
    Again, thank you, and I look forward to your questions 
today.
    [The prepared statement of Mr. Pearson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Dr. Bazelon, you are recognized.

                  STATEMENT OF COLEMAN BAZELON

    Mr. Bazelon. Thank you.
    I would like to thank the committee for the opportunity to 
testify today on this important topic.
    I started my career as an analyst at the Congressional 
Budget Office just as the second generation cellular services 
were beginning to be deployed. The developments of third and 
fourth generation technologies have helped fulfill the promise 
of wireless.
    The same will be true of, 5G which will bring unprecedented 
speeds and low latency to wireless networks, supporting new 
applications and development of an Internet of Things. And as 
with those earlier developments, additional spectrum is needed 
to fulfill the 5G promise.
    Unlike the previous technological advancements, 5G combines 
new technologies with a new architectural model of how spectrum 
is deployed. The architecture of a robust 5G network will 
require spectrum in a variety of bands: low-band spectrum below 
1 gigahertz for wide-area and long-range communications; mid-
band spectrum between 1 and 6 gigahertz for applications that 
would benefit a combination of coverage and capacity; and high-
band spectrum for short-range communications requiring fast 
data rates and low latency. All three pieces of this spectrum 
trifecta will be crucial for the successful deployment of 5G 
networks.
    The Principle of Spectrum Reallocation states that when the 
value of a band of spectrum in a new use exceeds the value in 
an existing use, plus the cost of transitioning the 
frequencies, it should be reallocated.
    This simple principle, that benefits should exceed costs, 
can face many obstacles in practice. Incumbent users, whether 
TV broadcasters or government agencies, tend to be reluctant to 
relinquish spectrum assignments. Consequently, mechanisms where 
incumbents are compensated are beneficial because they overcome 
resistance.
    In fact, anything that can be done to smooth the transfer 
of spectrum is helpful. For example, the recently introduced 
Spectrum Auction Deposits Act, which overcomes impediments 
identified by Chairman Pai to holding spectrum auctions, will 
facilitate future auctions, and the Spectrum Reallocation Fund 
will help provide frequencies for those auctions.
    The new 5G deployments will have profound implications for 
spectrum value. On the one hand, being able to integrate 
massive amounts of high-band spectrum into commercial mobile 
networks will flood the market with spectrum capacity, at least 
in dense or more populous areas and for applications that can 
utilize the higher frequency spectrum. On the other hand, these 
new networks will enable new wireless services and increase 
consumer expectations about throughput and reliability.
    The net impact of these two offsetting effects is 
uncertain, and overall spectrum values could go up or down. But 
within the overall net impact on spectrum values, there is a 
clear implication for different types of spectrum from 
increased user expectations for throughput, mobility, latency 
that will be fostered by the new 5G deployments.
    The value of mid-band spectrum used for capacity outside 
the areas served by high-band 5G deployments should increase 
because demand for network capacity, reset to a user experience 
based on a higher level of throughput in the urban areas, will 
be greater in those non-urban areas.
    The Principle of Spectrum Reallocation is applicable to all 
bands that make up the 5G spectrum trifecta, but I will focus 
on mid-band spectrum, the connective tissue of 5G deployments.
    In my accompanying paper submitted to the committee that 
CTIA released yesterday, I examined the value of making an 
additional 100 megahertz of mid-band spectrum available in the 
1,300 to 1,350 megahertz and 1,780 to 1,830 megahertz bands. 
After accounting for a moderation in spectrum value compared to 
recent highs, I find that a 50 plus 50 megahertz paired band 
would be expected to raise $63 billion in auction receipts. 
Making those frequencies available is expected to cost up to an 
estimated $8 billion in relocating existing users, providing 
them with at least equivalent and in many cases improved 
wireless infrastructure. Consequently, this band could be 
expected to raise $55 billion in net receipts.
    Admittedly, there is some uncertainty about forecasting 
future auction receipts. Frankly, it is not for the faint of 
heart. But as long as the auction of this 100 megahertz of mid-
band spectrum raises more than $8 billion, a paltry amount for 
so much spectrum that could be used for mobile broadband, 
reallocating the Federal users and auctioning the reclaimed 
spectrum will create value.
    The application of the Principle of Spectrum Reallocation 
does not end here. For example, all or part of the 3.7 to 4.2 
gigahertz band could be valuably deployed in support of 5G 
networks.
    I have investigated this band and found that, even with 
conservative assumptions about the value of both the existing C 
band services and potential new deployments, reallocating some 
or all of this band would likely create value. A voluntary 
mechanism that ensures incumbents benefit from any transition 
will help facilitate making additional needed frequencies 
available for new 5G networks.
    Thank you.
    [The prepared statement of Mr. Bazelon follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Adelstein, you are recognized for 5 minutes.

                STATEMENT OF JONATHAN ADELSTEIN

    Mr. Adelstein. Thank you, Madam Chairman and Ranking Member 
Doyle, members of the subcommittee, for the opportunity to 
testify. This hearing today is historic for a number of 
reasons, not just the topic, but because it is David Redl's 
last time on that side of the dais and not over here where he 
will soon be.
    We congratulate Mr. Redl on his rapid confirmation by the 
Senate. And you wonder why I say ``rapid.'' By my standards, 
what I went through, it is actually pretty quick. So it is all 
relative.
    I represent the Wireless Infrastructure Association that 
represents companies that build, own, manage, and maintain 
wireless facilities across the country. And we applaud the 
leadership of this subcommittee on promoting wireless broadband 
deployment.
    The wireless industry stands ready to make enormous 
investments, up to $275 billion to build out 5G. It will lead 
to 3 million new jobs and $500 billion to boost GDP.
    And the U.S. is really well-positioned to lead 5G, 
especially with David Redl as head of the NTIA. It will be 
something that will face stiff competition, though. We have 
competition from around the globe. Fortunately, this 
subcommittee, the FCC, and the administration have all shown a 
clear commitment to policies that encourage 5G investment.
    5G could prove one of the most transformational 
technologies in the history of technology. But as promising as 
the standard for 5G is, it is only as good as the 
infrastructure on which it is deployed. 5G will involve up to a 
hundred times more antenna locations than 3G or 4G, so all 
types of infrastructure are needed. And fully realizing the 
potential of 5G depends on how effectively it gets deployed. 
Responsible infrastructure deployment is key.
    Our industry works very closely with local governments, 
like San Jose. But if a company carelessly circumvents 
localities, it rightly angers the community and creates 
resistance to siting new facilities, and that can slow 5G.The 
WIA and its members seek to work in partnership with 
localities, because that is the best way to develop networks 
over the long-term.
    This subcommittee has long promoted responsible deployment. 
In fact, the great example of that is Section 6409(a) of the 
Spectrum Act. The law clearly sped 4G deployment by allowing 
upgrades on cell towers without burdensome zoning reviews, and 
it will continue to provide relief for the deployment of 5G 
through colocation, which is preferred by localities.
    Many communities welcome wireless deployments with 
streamlined siting policies. In fact, 13 States have passed 
laws to streamline deployment. I think Congress can bring all 
communities up to that same high standard by speeding the 
approval of permits and applications. Congress should provide a 
deemed granted remedy if a locality fails within a prescribed 
shot clock to approve an application.
    The FCC system for working with tribes who indicate a 
possible historic cultural interest often far outside of tribal 
lands is not working properly. It should be updated to exclude 
deployments with no new ground disturbance and ensure that fees 
are reasonable and appropriate.
    Congress should also modernize the historic preservation 
laws by excluding certain small cell deployments from 
unnecessary reviews. And Congress should revamp the Byzantine 
process of siting on Federal lands to speed deployment on rural 
areas, something we have concentrated on, on the BDAC, in the 
subcommittee I chaired.
    Another barrier to 5G is the growing gap between the skills 
of today's workers and the skills needed to build tomorrow's 
wireless networks. Many of our members report they are having 
difficulty in filling positions with qualified applicants.
    Now WIA is working to build bridges that will jump across 
that gap so that we can bring apprenticeships for the first 
time into the wireless industry. WIA is also developing 
training programs to support that, because we can't afford the 
lack of trained workers to slow the path to 5G.
    We are encouraged that Congress and the administration are 
seeking new ways to partner with industry on job training and 
on apprenticeship programs, because thousands of new high-wage 
jobs await those with the proper skills.
    The movement to 5G has the potential to unleash a wave of 
job creation, economic growth, and greater global 
competitiveness. That is why the subcommittee's leadership is 
so critical, and we are so grateful that you held this hearing 
today and invited me to testify. So thank you again for holding 
this hearing.
    [The prepared statement of Mr. Adelstein follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you.
    Ms. Santosham, you are recognized, 5 minutes.

                 STATEMENT OF SHIREEN SANTOSHAM

    Ms. Santosham. Good morning, Chairman Blackburn, Ranking 
Member Doyle, and members of the subcommittee. I am Shireen 
Santosham. I am chief innovation officer for Mayor Sam Liccardo 
in San Jose, California, the largest city in Silicon Valley. 
Thank you for the opportunity to discuss how cities are 
creating favorable environments to speed deployment of 
broadband.
    I want to particularly thank Congresswoman Eshoo for her 
focus on this issue and her excellent service for all 
Californians. We are truly fortunate to have her represent us.
    Cities large and small are eager for increased broadband 
investment and competitive choices for our residents. We 
understand the benefits of broadband to economic growth and 
creating an on-ramp to opportunity for our young people to 
learn and participate in the jobs of tomorrow.
    In San Jose we welcome technological advancement with open 
arms. This year alone we have launched an autonomous vehicle 
initiative, a crowdsourced civic challenge utilizing drones, 
entered into public-private partnerships with companies like 
Facebook. Just this past Monday our city council unanimously 
passed our broadband and digital inclusion strategy that 
includes several recommendations to streamline deployment and 
pave the way for technologies like 5G.
    San Jose is excited and ready to welcome 5G to our 
community. But at the same time, we have 95,000 residents in 
our city without broadband access. Think about that. In the 
heart of Silicon Valley, nearly 10 percent of our residents 
don't have adequate access to the internet.
    It breaks my heart every time I hear about children in our 
community who are trying to do their homework on a mobile 
device outside their school because they don't have internet 
access at home. They are losing the race before it starts.
    So while I welcome this next generation of the internet, we 
can't leave people further behind in the process. How this 
technology is deployed and who benefits matters.
    Unfortunately, much of the State-level legislation that 
recently passed in over a dozen States to streamline deployment 
goes too far and gives telecommunications industries the 
benefit of a public utility without the obligation to serve 
everyone at affordable rates.
    I am going to tell you about one of these bills, SB 649, 
which was wisely vetoed by our Governor in California and 
highlights issues relevant to Federal action that we believe 
are important for you to consider.
    The first is the extremely low caps that allowed cities to 
charge--that were allowed for placing small cells in the public 
right-of-way at cost. In fact, upon an independent review, 
these rates were found to be below cost, resulting in the State 
obliged to reimburse cities for the difference had it been 
signed into law.
    Not only would the bill cost cities, but it also stripped 
away the ability of local governments to incentive build-outs 
in traditionally underserved areas. In San Jose, we have 
digital deserts in the middle of our city where low-income 
Latino families live. By using market-based pricing of assets 
and negotiating citywide deployments, we can incentive the 
telecom industry to build out in these underserved areas. 
Preemption of local authorities to charge market rates and 
giving by-right access to industry removes these incentives.
    Second, equipment size and scale matters. Although the 
industry describes small cells as the size of a pizza box, the 
dimensions listed under SB 659 for small cells were over 21 
cubic feet, the size of a standard refrigerator. Such massive 
pieces of equipment need adequate safety review, and 
communities will want input if thousands are deployed on their 
sidewalks.
    Finally, the public benefits from local governments acting 
as a referee for the competing needs of the finite space in the 
public rights of way.
    So how can we move forward? We need a balanced approach to 
ensure that we are speeding deployment while benefiting the 
public broadly. Cities can create one-stop shops for providers, 
co-create design standards with industry, negotiate citywide or 
batch process permits, and offer transparent and fair pricing.
    On the Federal level, we must avoid preemption of cities if 
we want to see equitable and safe deployment. The Federal 
Government should instead focus on developing the capacity of 
local leaders to manage deployments in community-centric ways. 
The Federal Government should also be careful not to pick 
winners and losers through policy.
    On behalf of Mayor Liccardo and the city of San Jose, I 
want to thank the subcommittee for inviting me to participate 
in this hearing today. I look forward to questions, and we are 
willing and able to help in any of your districts that are also 
struggling with some of these questions of deployment.
    Thank you.
    [The prepared statement of Ms. Santosham follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Broeker, you are recognized for 5 minutes.

                   STATEMENT OF DAVID BROEKER

    Mr. Broeker. Good morning. Thank you, Committee Chair 
Blackburn, Ranking Member Doyle, and Congresswoman Brooks and 
other honorable members of this committee, for inviting me here 
today to talk about the impact of 5G on the future of life 
sciences and advanced manufacturing.
    My name is David Broeker, and I am the founder and 
principal of a legacy bioscience consulting company. I help 
entrepreneurs and innovators in the life sciences area advance 
their ideas to the marketplace. And I am also the founding 
president and CEO of the Indiana Biosciences Research 
Institute.
    Indiana is home to one of the most diverse, robust life 
science sectors in the country, with companies in 
biotechnology, pharmaceuticals, medical devices, agriculture, 
animal health, and diagnostics. Eleven percent of our workforce 
are employed by these companies.
    The State has consistently been second to our colleagues 
from California as the largest exporter of life science 
products in the United States, exporting more than $9.9 billion 
in products and contributing over $62 billion to the Indiana 
economy in 2016.
    Across life sciences today, biology and applied data 
science are converging to help researchers and scientists 
understand the genome and the massive amounts of data that are 
being generated every day. This convergence will require now 
capabilities and infrastructure like 5G to allow researchers to 
share these large data streams in ways that are better, faster, 
cheaper.
    The ability to do this will enhance discovery for new 
medicines and treatments for patients and enable the Massive 
Internet of Medical Things that are upon us to create new 
innovation.
    The development of the Massive Internet of Medical Things 
will connect patients to their physicians through telemedicine, 
augmented and virtual reality, interventions. It will make 
digital technologies like smart devices, wearables and sensors 
a part of the delivery of care to improve patients' lives. And 
when combined with other enabling technologies like blockchain, 
data standards, and encryption, it will create a shift away 
from place-dependent electronic medical records to virtual 
individual health records that will improve the quality of care 
through personalized medicine.
    5G technology will enable life science manufacturers to 
create better and more secure supply chains that will connect 
patients and distribution partners as well as create 
opportunities to improve the quality and productivity of the 
research and development process and the ultimate tech transfer 
and manufacturing of these products.
    For example, 5G technology will enable the real-time 
capture of appropriate patient information to improve safety 
monitoring and adverse event reporting. It will also allow for 
100 percent tracking of product distribution to the patient.
    It will improve the efficiency of clinical studies by 
providing 100 percent verifiable external data capture and 
exchange with researchers and development partners like 
contract research organizations. It will improve the technology 
transfer within companies between development teams and 
manufacturing operations to shorten timelines and bring 
innovations to the market faster.
    5G will also create opportunities to connect the patient 
literally to the shop floor and integrate advanced 
manufacturing capabilities like 3-D printing to make customized 
devices, cell-based therapies and therapeutics.
    Finally, 5G will result in more automation of 
manufacturing, improving the speed and efficiency, creating 
more manufacturing jobs, and enhancing the technology focus 
within the current manufacturing operations.
    Just like the Nation's interstate highway system made the 
fast and easy exchange of goods across the country possible, 5G 
technology will drive innovation in the life sciences by 
providing a better avenue for exchange of massive amounts of 
data being generated across the information-rich landscape of 
healthcare and life science innovation.
    I would just like to leave you with one factoid that I 
researched in coming to the committee today.
    I don't know how many people know what a zettabyte is. But 
a zettabyte is 1 followed by 21 zeros. So it is a pretty big 
number. And if you look at the major internet service providers 
today, they traffic a little over 1 zettabyte of information.
    In the next 3 years, it is projected that that will 
increase by over fiftyfold. So think about that amount of data 
and the infrastructure that is required to exchange, connect, 
and the convergence that is possible in life science and 
manufacturing.
    5G is critical enabling technology for America and will 
help drive new innovations in healthcare and increase 
competitiveness in advanced manufacturing.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Broeker follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
    Mrs. Blackburn. The gentleman yields back. This concludes 
our opening statements, and we are ready to move to questions 
and answers. And I will recognize myself for 5 minutes to begin 
that portion.
    Mr. Broeker, I want to start with you. I am so pleased that 
you mentioned the manufacturing component. We have 341,000 
Tennesseans who are in manufacturing. Last year, $30 billion 
worth of exports. So we are not quite to where you are with 
your Indiana number.
    But I want you to talk about this from two sides. You look 
at one of our States and you say: This is the potential if the 
investment is made, and this is what could happen if the 
investment is not made into 5G. Because I think this is 
something that we all are discussing. Mr. Johnson is working on 
broadband expansion. Mrs. Brooks is chairing the effort on 5G. 
So if you will take it from those two sides.
    Mr. Broeker. Chairman Blackburn, a very good question.
    I have been in and around life sciences my whole career, 
over 30, 35 years, and I actually started off as a 
manufacturing engineer. So I was one of those engineers running 
around the shop floor.
    Manufacturing is both a capital-intensive and a people-
intensive business. And currently, if you look at 
manufacturing, most companies can site that manufacturing 
anywhere in the world.
    And so what really drives companies to make decisions 
related to that manufacturing are a favorable business 
environment, which includes things like tax policy; 
availability and access to a trained workforce and talent; and 
the infrastructure that is required to make all of those things 
work.
    And so my point would be that if we don't do this, 
manufacturing will go elsewhere. It will start to--continue to 
go outside the United States, because it is a global 
opportunity for companies to go other places to set up new 
manufacturing and manufacturing of the future.
    So I think 5G enables us to become even more competitive 
than we have. And when you look at the future of the innovation 
that is possible, then we can capture that making it here in 
the great States that all of you represent.
    Just yesterday, I saw that for the very first time the FDA 
has approved a digital pill. This is a pill that is a 
combination of a drug. You swallow it. When it hits your 
stomach, there is a sensor in the pill that releases 
information to your smartphone that can go to the patient, it 
can go to their family, it can go to your healthcare provider.
    These are the kinds of things that are possible even today. 
FDA, as I said, just approved this digital pill yesterday. And 
so I think, without a technology like 5G and the infrastructure 
that this represents from a manufacturing standpoint, we have 
the potential to fall behind other countries that implement it 
better and faster than we do.
    Mrs. Blackburn. Thank you.
    And, yes, we had watched the development of this in the 
Software Act this committee passed out as a part of 21st 
Century Cures as a part of enabling that type technology to 
move forward with, I think it is, Otsaku is the company.
    Mr. Broeker. It is Otsuka.
    Mrs. Blackburn. Yes.
    Mr. Broeker. It is a new medicine for schizophrenia.
    Mrs. Blackburn. Which is a great opportunity.
    Mr. Adelstein, I have got 19 counties, 10,000 square miles 
in my congressional district. And I was out last weekend 
talking with one of our county mayors and he was all about 5G, 
so excited about the potential that is there for 5G.
    If you were talking to one of my mayors, and economic 
development, bringing jobs back is something they talk about, 
they also talk about healthcare and educational opportunity, if 
you were to kind of crunch it down, talk about that 
opportunity. How is this going to change what is happening in 
rural communities with the advent of 5G, what is going to be 
most significant and most notable?
    Mr. Adelstein. I think probably, as you indicated, what is 
most significant is the economic development opportunity for 
rural areas. Suddenly rural areas have at their fingertips the 
vast amounts of data they can both communicate and receive, as 
anybody anywhere in the world, if they can have that level of 
technology available, if it gets deployed to rural America, 
which we hope it can as quickly as possible.
    So there is opportunity for jobs to be located there, for 
people that are visiting to stay longer because they can get 
their work done there, for new businesses to locate there, 
where it is a better quality of life and lower cost of living 
and lower cost of doing business.
    So it is really an opportunity to revolutionize the way 
that business is done in rural America. I think it is something 
that a lot of folks that I spoke with when I worked at the 
Rural Utilities Service, as the head of it, were so concerned 
about.
    Mrs. Blackburn. Thank you for that.
    And I am going to at this point yield 5 minutes to the 
ranking member.
    Mr. Doyle. Thank you.
    Ms. Santosham, you are a member of the FCC's Broadband 
Deployment Advisory Council, right? And San Jose is the only 
local government on this 30-member council. Is that correct?
    Ms. Santosham. Actually, we were the only municipal 
representative when it was first appointed, but now they have 
added two more.
    Mr. Doyle. Great.
    Ms. Santosham. One from Kansas and one from Georgia.
    Mr. Doyle. Tell me, what is the impact of local government 
representation? How do you think it is impacting the 
recommendations of the Advisory Committee?
    Ms. Santosham. It has been a challenge in terms of both the 
process and the output of how we are working. And it is an 
issue that the National League of Cities, National Association 
of Counties, and U.S. Conference of Mayors, along with 237 
bipartisan mayors across the country have written to Chairman 
Pai about.
    And the numbers speak for themselves in terms of the 
approach to how we will deploy broadband. And we really do need 
more local government representation. And we are at the table, 
we are talking to the FCC. But we hope that we can get more 
representation.
    Mr. Doyle. Thank you.
    Commissioner Adelstein. Jonathan, welcome back. Good to see 
you.
    You are on the commission too, right?
    Mr. Adelstein. Yes.
    Mr. Doyle. How do you think local government input is being 
handled?
    Mr. Adelstein. Well, there are also members of local 
government on the working groups that aren't on the full BDAC. 
There is also a State commissioner from the State of 
Massachusetts sits on the group. So there are a number of 
representatives of municipal and local governments.
    I think the chairman is really seeing this as an 
opportunity for industry to work with localities to try to come 
up with consensus solutions. For example, a State code that 
would be a model, a municipal code that is a model. There has 
been a lot of good dialogue going back and forth between 
localities and the industry on that.
    And we have the opportunity to take input from outside of 
the working group as well. I mean, we are listening very 
closely to localities. We feel that if we can't get a good 
State or local code that is a consensus document that really is 
working together, it is not going to get adopted anyway.
    Mr. Doyle. Thank you.
    Mr. Bazelon, let me ask you. In your testimony, you 
mentioned the challenges of freeing up the spectrum resources 
for deploying 5G networks. And when we look at the lower part 
of the C band, the 3.7 to 4.2 gigahertz band, do you think it 
is realistic that satellite users will totally vacate the whole 
band, as some in the wireless industry have suggested, or do 
you think it is more realistic that the FCC might be able to 
repack some part of the band to free up spectrum that could be 
used for mobile license usage.
    I mean, I know in your heart of hearts you would like to 
have the whole thing. But I am just curious where you think 
reality lies given the complexities in the incumbent licenses.
    Mr. Bazelon. Thank you.
    So first the economist answer is that the value created by 
the band should be more than enough to compensate the existing 
users. And so from a social perspective, the band probably 
should be freed up. But there are stakeholders there, and they 
have legitimate and real concerns. And a process where they are 
working with the reallocation process is one that is more 
likely to be successful.
    So a voluntary mechanism that allows them to share in the 
gains of their efforts to free up the spectrum is one that I 
think is more likely to be successful. Whether that ends up 
clearing the entire band or part of the band I think is for the 
people who know best in the band to figure out.
    Mr. Doyle. Thank you.
    Mr. Pearson, in your testimony you talk about international 
harmonization of 5G bands. What part of the C band that I have 
just asked Mr. Bazelon about is being considered for global 
harmonization?
    Mr. Pearson. I would have to go back and look at that and 
study it a little bit further. But what we are looking at in 
most countries around the world is they are looking at focusing 
on low-, mid-, and high-band spectrum, all three. And so the C 
band would be one of those things they are looking at. I would 
have to look at exactly where I would go to focus on that, a 
little bit more research.
    Mr. Doyle. OK.
    Finally, Ms. Santosham, following up on my initial question 
to you. It seems like San Jose has been identified by some in 
the wireless industry as a problem child, that you are impeding 
the deployment of broadband technologies. Why do you think you 
are being labeled that way? I mean, from what I can tell, you 
and your city seem to be working very hard to advance the 
deployment of broadband technologies. Where is the disconnect 
there?
    Ms. Santosham. Well, it was a surprise to us, to be honest. 
We are one of the leading cities on these issues, on technology 
issues broadly, as I talked about. And we recently hired Smart 
Cities' lead for our city, who has 25 years of telecomms 
experience, hadn't worked in government before, is coming in 
and completely retooling how our city is approaching broadband 
deployment in order to speed permitting.
    So we were surprised that we were getting accused of 
charging fees and rates that were actually well in excess of 
what we actually do charge. And it was disappointing that we 
couldn't have a more collegial conversation about how do we 
actually deploy broadband.
    Because cities around this country, we want it. We want 
investment. When I go to neighborhood associations with the 
folks in my community, they want neighborhood fiber, because 
they are not happy about the investment that has been made.
    Mr. Doyle. Thank you.
    Thank you, Madam Chair.
    Mrs. Blackburn. Mr. Walden, you are recognized.
    Mr. Walden. Thank you, Madam Chair.
    Mr. Bazelon, in the report you released this week, I 
understand you estimated two bands of spectrum could raise us 
$54 billion in net revenue to the Federal Government after 
relocation cost to incumbents. Even here in Washington we think 
that is a lot of money.
    I know the focus of your paper was on mid-band spectrum, 
but are there potential low- and high-band spectrum bands we 
could combine with these in spectrum auction legislation?
    Mr. Bazelon. Certainly, as has been said, all three types 
of spectrum are needed. And to the extent that auctions would 
facilitate reallocations, that would be a good idea. But as 
with all bands, there are incumbent users, and it sort of 
depends on the specifics.
    I would suggest that, at the low band, the television 
frequencies are still ripe for the economic tests I suggested 
about the value in new use versus current use, but also 
appreciate that is unlikely to be an area of focus any time 
soon.
    And the FCC, I don't know what time it is, but they may 
have just reallocated more spectrum from the high band. And 
should any of those be auctioned, that would be about a useful 
addition.
    Mr. Walden. All right.
    And, Mr. Pearson, do you have any thoughts on this matter?
    Mr. Pearson. Yes. I think that, as you said, there is a lot 
of money at stake here, because if you put in auction processes 
and rules that make that spectrum, whether it is low, mid, or 
high, it is very valuable spectrum for the mobile wireless 
industry.
    I know there has been a lot about 5G just being a 
millimeter-wave story. And if you look at internationally 
specifically, if you go to China, if you look at Japan, if you 
look at Korea and Europe, they are looking at this in all the 
bands.
    And so specifically, the mid-bands and the millimeter 
coupled together become part of the story of 5G. It is a bigger 
story than just millimeter-wave.
    Mr. Walden. All right.
    And, Mr. Bazelon, there is a perennial debate around here 
about authorizing specific bands for auction versus providing 
the FCC with blanket auction authority. The most recent 
estimate from the CBO, Congressional Budget Office, said that 
if we just gave blanket authority, it would raise a very small 
amount of money compared to what you have put forward. A 
blanket extension, I think, would be around a billion dollars.
    A billion dollars is still a lot of money. But when you put 
it up against the potential for $54 billion net to the Treasury 
just for those two bands, do you have a view on whether we 
should give blanket authority or reserve it for auction?
    Mr. Bazelon. There is no reason that the FCC shouldn't have 
blanket authority, and the two are not actually in conflict.
    The reason, my understanding, and now I have put on my 
green eyeshades from my CBO days as a budget scorer, the reason 
blanket authority today has such a low score is because, in 
essence, the low-hanging fruit of what can be reallocated and 
auctioned has already happened.
    So that is why it is important that the incumbents are 
incentivized to cooperate, whether that is through government 
diktat or through a market mechanism, and typically that takes 
additional legislation. But those additional efforts by 
Congress would create a positive score even if----
    Mr. Walden. Are you sure? We did that in 2012, and AWS-3 
auction came back at zero from CBO, and it sold for $44.4 
billion. So I don't have a lot of faith in taking away our 
tools, relying on others.
    Mr. Bazelon. I don't think that whether there was blanket 
authority or not would have changed that score. So it is an 
issue. And as I said, it is a very difficult thing, forecasting 
receipts, and also the clearing costs. But I don't think the 
blanket authority is what is actually creating the problem 
there.
    Mr. Walden. All right.
    Mr. Pearson, do you have any comment on this? Do you care 
about this issue?
    Mr. Pearson. I don't have any comment to add any further, 
no.
    Mr. Walden. All right. Well, I just think we worry up here 
about losing the incentive to do a lot of this work if we don't 
get a score out of it. I think that is a driving force really.
    We want to continue to make spectrum available, don't get 
my wrong. But you have to put a lot of work into a lot of 
issues, and I am afraid if we give blanket authority, CBO is 
going to say: Well, there went your money in the future, and 
that 54 billion you have identified may be there, but you don't 
get to count it. And we have things we are going trying to get 
done.
    So I think it does present--Mr. Adelstein, do you want to--
--
    Mr. Adelstein. One thought for CBO is that the Guthrie-
Matsui bill would allow an auction otherwise the chairman is 
saying can't take place. So it seems to me, if CBO is being 
accurate, they should give a very good score to that, because 
that auction for high frequency bands could yield a very large 
sum for the Federal Treasury.
    Mr. Walden. And just one, maybe, for the record, because I 
know my time has expired. But is anybody looking at--I heard a 
discussion the other night about, literally, AM radio side 
bands and new technology to do compression on the down wave 
side that doesn't get counted.
    Is anybody looking at that? Are you aware of any of that? 
All right.
    It was an interesting new theory. Thank you.
    No, no, no. I was hoping to get more information.
    Thank you, Madam Chair.
    And thanks again to our witnesses for being here.RPTR 
TELLEDTR CRYSTAL[10:58 a.m.]
    Mrs. Blackburn. The chairmanis reminding us that he has 
that broadcast knowledge and information.
    OK, Mr. Welch, 5 minutes.
    Mr. Welch. Thank you very much.
    Mr. Adelstein, I think I will start asking questions to 
you.
    When you describe what the potential benefit is in rural 
America, that is really the heart of my concern, because we 
have to have the build-out in rural America. We don't have it. 
Mr. Latta and I have started a bipartisan caucus, the Rural 
Caucus.
    And the real issue here is, frankly, my skepticism that the 
investments that will be required for 5G will be made in rural 
areas. And specifically, as I understand it, you need more 
towers with 5G. They don't have the penetration powers, the 
signal penetration is shorter, and it is much more vulnerable 
to obstacles.
    So the worry I have is that the same cost-prohibitive 
obstacles to build out in rural areas under existing technology 
will persist with 5G technology. So can you address that major 
concern and how those of us who do represent rural areas can be 
just absolutely certain we are not going to get the short end 
again?
    Mr. Adelstein. Well, I think you identified a very 
legitimate issue. I mean, basically the biggest problem with 
rural deployment is economics. The industry builds to where 
there is demand, and they build where there is a return, 
especially when it is very costly to build these networks and 
there----
    Mr. Welch. No, no, we all understand that. It doesn't pay 
economically. So what do we need for build-out rules if, in 
fact, the rural America is going to get the benefits that you 
described are right there if we have the system in place?
    Mr. Adelstein. Well, every dollar spent on needless 
regulation is a dollar that can't be spent on rural America. 
There is limited capital budgets. And so if we are getting 
caught up----
    Mr. Welch. Wait. No, no. Wait. I get it on regulation. But 
you said something that is obviously true. If the market isn't 
there, it is sort of like electricity, there is no incentive, 
regulation or not, for an investor to go to rural Vermont as 
opposed to urban Burlington, let's say, right? That is just 
economics.
    So there has got to be some public policy. And let's assume 
we have a favorable regulatory system, as you see it, because I 
don't want extra regulations. How do we guarantee that there 
will be build-out in rural America when there is no money in it 
for the big players?
    Mr. Adelstein. The primary mechanisms for policy are the 
Universal Service and the Rural Utilities Service that work in 
concert. As a matter of fact, when I was administrator of the 
Rural Utilities Service we provided a grant to VTel in Vermont 
that was----
    Mr. Welch. So what would we need? I mean, look, all of us 
here represent rural America, OK, and this is a problem. So 
let's just say we agree on regulations because we don't want to 
make it more expensive, but there has got to be some money that 
goes into it without the rural America having to beg for 
everything. I mean, are we entitled to the same level of 
services in urban areas or not? That is the question.
    Mr. Adelstein. Well, the Communications Act says comparable 
service and comparable rates, and that is the purpose of 
Universal Service. So it is in this committee's jurisdiction to 
try to ensure that Universal Service builds it out.
    Mr. Welch. Right. But, actually, I loved your testimony, 
but you are not reassuring me, because I am asking the ``how'' 
question.
    All right. Dr. Bazelon, how about you?
    Mr. Bazelon. So there are lots of benefits to living in 
rural areas. One of the costs is that some things cost more 
there. When there is a public policy to make sure that is 
provided to rural areas the government is going to have to step 
in and assure it.
    Mechanisms in the past where there have been internal 
cross-subsidizations from urban to rural areas have been shown 
to be rather costly, and we have moved away from that model to 
more directly, if you want to create demand in a rural area, 
you subsidize the cost to providing the service. Once that is 
in place, though, and there is demand from people in rural----
    Mr. Welch. How do we get it in place? I mean, the build-out 
expenses, as I understand it, in rural areas is going to be 
high, and there is not going to be the incentive for the 
investors to do that because they don't get their return.
    So how do we avoid making the same mistake? A lot of 
rhetoric about the benefits of this build-out in rural America 
but no follow-through.
    Mr. Bazelon. It is a Universal Service-type program where 
the difference in the cost of serving those customers and what 
is considered a reasonable price needs to be made up from other 
users or from the public. So that will create the demand. With 
the demand the carriers will come and build to them.
    Mr. Welch. Mr. Pearson.
    Mr. Pearson. Well, the only thing I would like to add to 
the discussion is when you say it is going to cost more to 
build out a 5G in these areas, really when you look at building 
out 5G, if you lose the low bands or the mid-bands, it is not 
necessarily more costly to go. We already have one carrier that 
got spectrum from the 600 auction, and they have said that they 
are going to build out 5G in that band, and it carries waves 
that will cover----
    Mr. Welch. All right. My time has expired.
    I just want to say one thing, Madam Chair. I think we need, 
those of us who represent rural America, some concrete build-
out rules that can give us concrete confidence that somehow, 
some way, the system is going to serve rural America.
    I yield back.
    Mrs. Blackburn. So noted.
    At this time, Mr. Lance, you are recognized, 5 minutes.
    Mr. Lance. Thank you, Chairman.
    Dr. Bazelon, Congress, and specifically this committee, 
recognized the need to address more commercial spectrum that 
resulted in the 2012 Spectrum Act, and it spurred three 
auctions. Now that these auctions have run their course, is it 
your view that we need a new spectrum pipeline initiative to 
meet America's future spectrum needs?
    Mr. Bazelon. As I think has been pointed out numerous 
times, it takes a long time from when an idea becomes law even 
to the time that the spectrum is reallocated, so the sooner we 
start the better. But, yes, we need more spectrum. We should be 
thinking not just about the next 5 years but the next 10 and 20 
years of how we are going to transition incumbent users out to 
be able to make frequencies available.
    Mr. Lance. Thank you very much.
    In your recent paper you noted there is skyrocketing global 
demand for mobile wireless services. And with the coming of 5G 
it is important to find spectrum to fuel that growth.
    The two bands you discuss are complementary to AWS-3 
spectrum, which was auctioned for over $40 billion. You 
estimate the two bands you have discussed could auction over 
$62 billion. What drives the price so high for these particular 
bands?
    Mr. Bazelon. In this case I actually start with the prices 
paid and the AWS auctions and reduce them a little bit to 
recognize that increased supply would reduce prices. In the 
case of this auction, there is about twice as much spectrum 
being auctioned, but I am only estimating about a 50 percent 
increase in price.
    Mr. Lance. Would you insist that they be auctioned 
together?
    Mr. Bazelon. The current estimate is based on the idea that 
they are auctioned together and paired so that you have the 
uplink, downlink architecture in place, and I think that is 
still the highest valued use for the spectrum. At some future 
time, and it depends how far in the future, that may not be as 
important, but for now I think if you want to maximize the 
value you should pair them.
    Mr. Lance. How would the mid-band spectrum identified by 
the Commission in its recent NOI fare in this type of auction 
in your opinion, Dr. Bazelon?
    Mr. Bazelon. I am not sure which specific frequencies you 
are referring to, but the need, I mean, I think as many of us 
have said, the need for mid-band spectrum in this new 
architecture is going to be high.
    This is the spectrum--imagine in the denser areas, it 
doesn't have to be just urban but anywhere where there is 
enough people to deploy the high frequencies, there is going to 
be an expectation of large bandwidth, low latency, high 
connectivity, and as you move outside those areas you are not 
going to want your devices to stop working. That is actually 
going to put increased demand on these mid-band spectrum 
frequencies.
    Mr. Lance. Thank you.
    Mr. Pearson, as you mention in your testimony, several 
countries in Europe and Asia are taking concrete steps to make 
lower portions of the mid-band, specifically frequencies 
between 3 and 6 gigahertz, available for commercial 5G 
deployment.
    Do you believe policymakers here in the United States, 
including us, are doing an adequate job to make similar bands 
available for 5G?
    Mr. Pearson. I think we are making progress in the United 
States, and I think we need to do more. If you look at most of 
these countries, they are very proactive and aggressive in 
their planning processes and where they are directing their 
industry to go and their governments to go with the mid-bands, 
and specifically I would say the 3.5 band.
    Recently I think we have made some steps here with the CBRS 
band to improve maybe the opportunity for investment in that, 
whether it is going to be LTE or 5G, and that is helpful. But I 
do think we need to do more in the United States, if you look 
at the competition from around the world and what they are 
doing, and the economies of scale that are going to happen in 
that band.
    Mr. Lance. Thank you.
    And, Chairman, I yield back 40 seconds.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui, you are recognized.
    Ms. Matsui. Thank you, Madam Chair.
    Congressman Guthrie and I recently held a Spectrum Caucus 
event on 5G, and we had a great panel made up of leading 
wireless providers and a leading chip manufacturer, a leading 
software company, and a small rural wireless carrier.
    Now, 5G will include spectrum but also rely on advanced 
chip sets, software capabilities, and other innovative 
technologies.
    Mr. Bazelon and Pearson and perhaps Mr. Broecker, do you 
think that blockchain, since you mentioned it, also will play a 
role in 5G and, specifically, to make efficient use of spectrum 
sharing?
    Mr. Bazelon. I haven't examined the use of blockchain in 
spectrum sharing. Clearly mechanisms that allow more users to 
share the same frequencies are going to increase the 
productivity of band to spectrum, and as demand on spectrum is 
increasing, anything that will help in that way will be useful. 
But I wouldn't want to comment specifically on blockchain.
    Ms. Matsui. Right. We are at the beginning stages then is 
what you are saying with that. Thank you.
    Would you like to comment on that.
    Mr. Broecker. I can't tell you what the technical details 
are around blockchain, but I can tell you that it is going to 
be an important technology, just like the internet. The 
internet is the portal for communication and information, and I 
think blockchain will be the internet of value and asset 
exchange.
    And so I think that the technical details are still--
blockchain is a still a cumbersome technology. But there are 
other companies that are rapidly trying to advance that 
technology to make it more widespread. And so I think just 
basic infrastructure requirements will have to increase, and I 
think 5G will be a part of that.
    Ms. Matsui. OK. Great. Thank you.
    And also things like advanced chipsets and software 
capabilities I believe will play an important role, too. Is 
that right?
    Mr. Bazelon. It has been compared to magic, this 
technology. That is more true as time goes on.
    Ms. Matsui. OK.
    I know we have been talking about the mid-band spectrum, 
but it has unique propagation characteristics that make it 
ideal for reliable satellite distribution and particularly 
valuable for terrestrial mobile use. Wireless, fixed wireless, 
satellite services, and others have identified certain mid-
range bands as ideal for 5G operations. But we know there is 
considerable disagreement over the best mechanism to enable 5G 
deployments to utilize the spectrum, including in the C-band.
    Mr. Bazelon, what would a market-based incentive that would 
allow incumbents to voluntarily clear portions of this band 
look like?
    Mr. Bazelon. So I understand that a joint proposal by Intel 
and Intelsat was put forward that would allow the incumbent 
users--give them the authority to negotiate with new 
terrestrial wireless users. And although I have worked with 
those companies on this issue, I have not developed--worked on 
developing the mechanisms.
    But the principle behind it, that the incumbent users will 
benefit from their efforts of participating in the process and 
making the spectrum available I think is the key part to having 
it happen in a timely manner.
    Ms. Matsui. So you think it is possible to devise rules for 
these bands so that you can protect incumbent operations while 
also allowing mobile broadband use?
    Mr. Bazelon. Yes. I mean, in some cases it is about, say, 
cordoning off geographic areas that are going to be protected. 
It may be about taking an earth station out an urban area and 
moving to it a rural area and then connecting it back with a 
fiber optic cable and that way you are able to geographically 
partition the spectrum.
    These are really all quite complicated issues with how this 
band could evolve, and it is the incumbent satellite carriers 
and the new terrestrial wireless carriers that will know best 
how to work that out.
    Ms. Matsui. One of the spectrum bands the FCC is examining 
in its mid-band inquiry is--wait a minute. No, I want to go 
this one here.
    The Citizens Broadband Radio Service, the 3.5 megahertz 
band, as co-chair with Representative Guthrie of the Spectrum 
Caucus, we are very focused on the opportunity that this 
particular band will offer. A mix of low-, mid-, and high-band 
spectrum is necessary both for wireless coverage today and to 
build network capacity in the future; 3.5 gigahertz can be a 
significant component of mid-range bands that facilitate 5G 
network deployment.
    Mr. Pearson, do you think there is a way to ensure this 
band is open to every innovative wireless opportunity it 
intends to promote?
    Mr. Pearson. Yes. Number one, I think when you talk about 
the opportunity for that band in 5G, it is a band that, again, 
is a great emphasis if you go around the world.
    Now, as far as the improvements that can be made in that 
band for investment, I mean, from a mobile wireless industry 
side, I think we need, as we have seen, longer license terms, 
larger geographic areas, and so forth, and the expectation of 
renewal on those licenses. That is where you get investment in 
our industry.
    And if you go around the world there are very few other 
geographic or other countries that have some of the issues that 
we have with the Navy radar and so forth. So they are looking 
at that as pretty much clean spectrum of them moving forward 
with for 5G.
    Ms. Matsui. OK. Great.
    Thank you very much, and I yield back.
    Mrs. Blackburn. Mr. Shimkus, you are recognized, 5 minutes.
    Mr. Shimkus. Thank you, Madam Chairman.
    I am glad Peter Welch is still here, and I hate to say he 
is right sometimes, but all he does is kind of give voice to 
frustration in rural America that we just don't get there. But 
I would also argue that there are still some regulatory issues 
with maintaining copper wires that we should have a discussion 
about, reforming the Universal Service Fund. I think Mr. 
Adelstein talks about RUS.
    I mean, there are tools, it is just we have got to refine 
those, and I would be happy to work with you on those things. 
So it is very frustrating out there.
    Ms. Santosham, I mean, the real debate for me is industry 
getting in or the concern of municipalities blocking. So how 
large is San Jose?
    Ms. Santosham. It is a little over a million people.
    Mr. Shimkus. And these other communities are now part--they 
must be smaller. Do you know the size of the Kansas----
    Ms. Santosham. Lanexa and Valdosta. I think Valdosta is 
about 40,000. I am not sure about Lanexa.
    Mr. Shimkus. OK. And so your 5G, for lack of a better word, 
desert, or areas that you want to go to that are not served, 
the Latino community that you were mentioning, do you know the 
population area of that.
    Ms. Santosham. I don't, but I am happy to get back to you 
on that.
    Mr. Shimkus. My basic point is that is probably bigger than 
most of my communities. That area that should be of your 
concern. I am not saying as a municipal leader. If I was a 
municipal leader I would be concerned about that. And sometimes 
in rural America that is bigger than--I have a county that only 
has 5,000 people in it.
    So it goes to that debate of how do you get there and get 
deployed. This is a different era than coaxial cables and 
access to poles, which is kind of how this original--how did 
municipalities then give right-of-ways, leverage for dollars 
and access, versus affixing pizza boxes or refrigerators in 
local communities to provide this service.
    So in 2009 the FCC said we should have a shot clock to help 
some deployment, and that shot clock was--the Supreme Court 
supported that in a decision in 2013 and which is kind of the 
law of the land.
    But, Mr. Adelstein, even with the shot clock and the ruling 
and with the Supreme Court, are you still perceiving that there 
are problems in market entry?
    Mr. Adelstein. Well, there is still a problem with the shot 
clock if it is not deemed granted at the end, because you have 
to go to Federal Court, and then it is an endless loop that you 
end up there.
    This committee was responsible for, as I mentioned, 
enacting 6409(a), which allowed the FCC the authority, clear 
authority to say at the end of the process, if a locality won't 
allow a colocation, it is going to be deemed granted, and that 
means it gets done. We haven't had any pushback on that.
    But on these other shot clocks we have had numerous 
examples. As a matter of fact, the tendency is for the 
community to go beyond the shot clock and for our industry not 
to sue because we know we will be back at that community again 
later, and we know that the Federal court mechanism is not a 
particularly effective one. So we could use additional 
authority of the FCC to allow for deemed granted.
    Mr. Shimkus. And how would you--so, I mean, I guess you 
answered it. Deem granting would be the provision that you 
think would help in that.
    Ms. Santosham, you wanted to commend on that.
    Ms. Santosham. Yes, I just want to take a little bit of a 
step back.
    So the infrastructure that we are talking about now to 
deploy 5G is largely light pole infrastructure, infrastructure 
that is traditionally used for lights, maybe you put a banner 
up, right? They are not always structurally sound to put a 
heavy piece of equipment on, and they oftentimes need 
remediation.
    Mr. Shimkus. That is true, but if I may, in previous 
hearings here we had talked about the ability of some of these 
things to be placed on the side of buildings.
    Ms. Santosham. Yes, but by and large it will be mostly 
street lights because of the density that you need to deploy 
the networks. And so when communities--when we say that the 
communities are taking a little bit longer it is partially 
because we are taking this 200-year-old infrastructure and then 
we have got to change the way that we have permitted and used 
that infrastructure.
    Mr. Shimkus. I only have 12 seconds left, and I appreciate 
that. I guess what we are trying to find is we need to have a 
balancing act. You want your folks to have 5G. We want our 
folks to have 5G.
    Mr. Adelstein.
    Mr. Adelstein. One quick point on San Jose. The State of 
California enacted a deemed granted remedy for shot clocks. So 
San Jose is under that. And so if California can do it, the 
United States can do it.
    Mr. Shimkus. Thank you, Madam Chairman. I yield back.
    Mrs. Blackburn. Mr. McNerney, you are recognized for 5 
minutes.
    Mr. McNerney. I want to thank the chairlady for the 
hearing.
    And I thank the witnesses. It has been interesting to hear 
what you have had to say.
    Mr. Pearson, in your written testimony you emphasized the 
importance of U.S. leadership in the global race for 5G. At a 
hearing earlier this fall we heard that the Sinclair merger 
could delay the repack of the 600-megahertz band, slowing down 
5G deployment and U.S. competitiveness.
    Do you agree that it is important the FCC not take steps to 
delay the clearing of spectrum for 5G? Do you believe that that 
would hurt us?
    Mr. Pearson. I think that we should do everything we can to 
clear the spectrum to put it to the best use, in this case 
mobile wireless. I think connecting society is some of the best 
uses.
    Mr. McNerney. So the Sinclair merger, which may delay that, 
would be an impediment in this case?
    Mr. Pearson. I would have to research that.
    Mr. McNerney. I know you are not an expert on that. I just 
wanted to make that point. Thank you.
    Where are we in the standards-making process for 5G?
    Mr. Pearson. In the standards?
    The standards are making great progress. What we are 
actually looking at is a draft of the first release of what is 
called--I don't want to get too technical--but of a first 
release of 5G at the end of this year. So everyone will know 
what kind of chipsets and silicon to start producing.
    That will be completed in early 2018. The second phase of 
5G will then be December of 2019, just in time for ITU to do 
their blessings in 2020.
    Mr. McNerney. So is cybersecurity being taken into account 
in the standards process?
    Mr. Pearson. Pardon me?
    Mr. McNerney. Cybersecurity, is that a significant part of 
the process?
    Mr. Pearson. Yes, it is. It is part of it. 3GPP has two 
different areas that are working on--well, actually several, 
but several areas that are working on that and security is a 
mainstay for our industry, as well as the standard.
    Mr. McNerney. OK.
    Ms. Santosham, in your written testimony you noted that the 
city of San Jose has deployed an Internet of Things network. 
How important is IoT data security, for example, that devices 
be patchable and downloadable?
    Ms. Santosham. It is incredibly important. You know, data 
is the new oil, and cybersecurity is incredibly important to 
our cities. Cities will be obviously a target for cyber 
threats. And privacy is also of concern.
    Mr. McNerney. Good. I personally believe that digital 
device security is critical and that we are late in the game on 
this process.
    Earlier this year I introduced the Securing IoT Act, which 
would require that cybersecurity standards be developed for IoT 
devices and that those devices be certified. I hope that the 
committee takes up this legislation soon.
    Ms. Santosham, I am aware of the many benefits that the 5G 
has to offer, including faster speeds, but I am worried about 
the costs. For my constituents, there is a real concern because 
more than 21 percent of my households earn less than $25,000 a 
year. How do you expect the 5G deployment to impact the cost of 
wireless services?
    Ms. Santosham. Today there are no guarantees that cost to 
consumers will go down, and cost of service and cost of devices 
are the top two barriers to digital inclusion. And I think when 
we are talking about subsidizing infrastructure deployment 
rates for large corporations we should be asking for something 
back.
    Mr. McNerney. Well, you mentioned, I think, you had 75,000 
residents that don't have broadband access in San Jose. If the 
Federal Communications Commission eliminates the Lifeline 
program today, how would that impact these and other residents 
in San Jose?
    Ms. Santosham. Twenty-nine percent of our low income 
residents only have access to the internet through mobile 
phones. And so if Lifeline goes away that will have a 
significant impact on their ability to be connected.
    Mr. McKinley. Thank you. That is what I thought.
    Mr. Adelstein, you testified that the U.S. is in a position 
to retain our lead moving into 5G. Could you explain what that 
means exactly? What does it mean quantifiably that we have a 
lead in 5G?
    Mr. Adelstein. Well, the important thing is that other 
countries are making it very easy to move forward. In Japan and 
Korea, for example, that are moving quickly toward 5G, they 
could site anything, anywhere, any time. And I am not saying we 
need that here because we have always worked in close 
partnership with localities, but some unreasonable impediments 
are going to slow down the deployment.
    Mr. McNerney. What does leadership mean? What does that 
mean?
    Mr. Adelstein. Usually it would mean that we would be the 
first to implement the network. We would be ahead in terms of 
the chipsets, as we already are with our leading chipset 
manufacturers. We would be ahead with the devices that we get 
into the hands of consumers.
    Mr. McNerney. I mean, could we include rural access as a 
part of that definition of leadership in this field?
    Mr. Adelstein. Ideally it would. I mean, we talked earlier 
about the issues with rural, which is expensive. I mean, the 
greater costs you have to deploy this, the less likely we are 
to get to rural and the longer it will take.
    I mean, rural historically has been the last to get these 
devices, and it is unfortunate, but the costs are extremely 
high to provide this type of network. And we need to do 
everything we can to lower those costs to allow that capital 
budget that the companies do have, which is the largest of any 
industry, 30 billion a year being invested, and a lot of that 
in rural America.
    Mr. McNerney. My time has expired, and I am sure the chair 
is anxious to move on. So thank you for the answer.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Brooks for 5 minutes.
    Mrs. Brooks. Thank you Madam Chairwoman. Thank you so much 
for holding this hearing today.
    Mr. Broecker, wonderful to have you here. You noted in your 
testimony the exponential growth of the Internet of Things, 
which we have talked about a bit--smart devices, wearables, and 
sensors, and thank you for sharing with us the issue of the new 
discovery and use of the digital pill--will increasingly be 
part of the delivery of care to improve patients' lives. We 
have had quite a discussion also about rural America.
    How do you believe that these innovations are going to have 
the power to bring better care, better healthcare to patients 
in rural areas? I represent rural areas, as well, in central 
Indiana. And do you have any specific examples of scenarios 
where 5G can improve that doctor-patient relationship and 
improve the delivery of care in rural areas?
    Mr. Broecker. Absolutely. You know, there is an emerging 
trend, and it is increasing, and it is the notion of 
telemedicine where patients don't actually have to go to a 
hospital or to a doctor's office and through internet 
connection and other technology-enabled solutions they can have 
a consult.
    There is robotic surgeries occurring where surgeons in 
completely different parts of the United States can be doing 
surgery in a hospital someplace else.
    So as I mentioned in my testimony, healthcare is going to 
be driven less about place and more about the connection to a 
healthcare system, and that doesn't necessarily need to be 
right next door. I mean, it is great if it is, but there are 
going to be technologies and solutions and innovations that are 
going to allow people and patients and healthcare systems and 
physicians to be connected in completely different ways.
    Mrs. Brooks. Switching gears a little bit to the focus that 
you put on automation of manufacturing and that 5G will result 
in even more automation, some become nervous about increased 
automation as it relates to jobs and the people on the 
manufacturing floor, so to speak. And we also know automation 
increases speeds and efficiency of manufacturing to create 
these jobs.
    Are there any policy areas Congress should be looking at to 
help the workforce adapt as we continue to push and believe in 
the importance of implementation of 5G to the world of 
innovation, automation, and manufacturing? What should Congress 
be doing for the workforce and how do we help the workforce 
adapt?
    Mr. Broecker. I mean, the general trend is toward STEM 
education and enhanced STEM education and starting early in a 
student's life, whether that is in grade school or high school 
and getting involved in things like robotics and getting 
familiar with technology. You can now do biology genome 
experiments in eighth grade, whereas before you needed to have 
a Ph.D. and be at MIT, where I went to school. These things are 
now possible.
    But it really gets back to an educated workforce, starting 
with the next generation. But it also means skills and 
developing the skills amongst the current workforce to be able 
to do that.
    You know, I said I started off in manufacturing, and I saw 
lots of innovation come over my 20-plus-year career. And the 
same debate was argued, you know, OK, we are going to get all 
these fancy pieces of equipment and machines to do the work. It 
never replaced people. At the end of the day it still took 
people overseeing, managing, making sure that the machines did 
what they were supposed to do. But it takes an educated 
workforce in order to do that.
    Mrs. Brooks. Thank you very much.
    I am going to yield back the balance of my time so others 
can ask their questions. Thank you.
    Mrs. Blackburn. Thanks.
    Ms. Eshoo, you are recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    And thank you to all of the witnesses. It is good to see 
Jonathan again.
    And a very warm welcome to Ms. Santosham from San Jose, 
California. I think you gave very important testimony today. 
And I appreciate the warm words that you directed toward me, 
and I return them to you.
    First, I want to make a couple of comments about the whole 
issue of 5G. I believe that it has--it holds the potential for 
many benefits, and several of you have mentioned them, and how 
it will lead to competition and bridging the digital divide and 
unlock the Internet of Things.
    So I think that it represents a real opportunity for all of 
us. And of course I always say I am not satisfied with America 
being 5th or 12th or 17th. I want us to be number one and lead 
the world in whatever it is, whatever the undertaking is, and 
whatever the sector is. And obviously we are all going to have 
to work together to move in a direction that is going to make 
this a reality.
    But I am also concerned that there are some things that are 
being pushed aside in the race to 5G. And I want to associate 
myself with some of the comments that both our ranking member, 
Mr. Doyle, and also Mr. Welch made.
    We have two problems, two big problems. And I think that as 
we move forward with this and any other initiative that has 
anything to do with spectrum, which is the gold in all of this, 
because there is an insatiable appetite for it, and as we 
continue to innovate, you have to have spectrum. Spectrum is 
the platform, it is the fuel that makes everything go.
    But Mr. Welch spoke about one. How do we assure that there 
is accessibility in rural communities? No matter what we do, 
this issue keeps coming up. We are not making progress there. I 
mean, it is like the 10,000-pound gorilla in the room.
    I also have concerns about how we are going to deal with 
local communities. I have a reverence for local government. I 
came from it. I spent a decade in local government. We cannot 
run roughshod over local government. And I think that there is, 
most frankly, a rush to do that.
    In fact, what Mr. Doyle raised about how did San Jose get 
this reputation and this attack on them for being whatever, I 
don't know where that came from. But it seems to me, because 
you raised your voice about, wait a minute, we have to be 
considered in this, we have citizens that we need to respond 
to, and you can't just run roughshod over us.
    So to Ms. Santosham--first of all, I want to ask for 
unanimous consent to place in the record a New York Times 
editorial by the mayor of San Jose, Sam Liccardo, dated 10/3/
17, Mr. Chairman.
    Mr. Lance [presiding]. So ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Eshoo. Wireless providers have been accused of 
redlining certain neighborhoods, a practice that obviously 
exacerbates the digital divide. And I would like you to comment 
on that, but also tell us what the importance of cities like 
San Jose is implementing market-based infrastructure leases to 
ensure that private industry is enhancing broadband access for 
all communities.
    It is not just San Jose. San Jose is speaking up. But they 
have an issue, and they are not rural, of 95,000 people in 
their city that have nothing. They have no access to it. This 
is the largest city in Silicon Valley.
    So would you comment on that? Because I find that deeply 
disturbing.
    Ms. Santosham. Yes. So, first of all, market-based rates 
and incentives are things we should all believe in. And there 
is a little bit of an irony that we as a city government are 
asking for market-based rates and the private sector is asking 
for cost-based.
    And market-based rates allow us to incentivize buildouts, 
especially when we are allowed to build out entire communities. 
So we are able to say: Hey, hereis all the space in the city we 
would like to build out, and we will give you a discount on 
some of this infrastructure if you are willing to go to the 
communities that need to be served.
    And so I think that is what is missing in this 
conversation, is by speeding the deployment and running 
roughshod over local government you are then taking away the 
ability to shape and manage where deployment happens in 
communities so that communities benefit.
    Ms. Eshoo. So is the BDAC the place where this will be 
decided?
    Ms. Santosham. The BDAC? I don't think so, but I am 
concerned about the direction there because of the lack of 
representation both on the voting body and in the subgroups.
    Ms. Eshoo. I wrote to the chairman about that. And I think 
if you have mostly industry people then it is just going to be 
weighted that way. I am not opposed to industry people, but you 
have to have some kind of balance in this. And that is another 
red flag.
    Thank you to all of you.
    I think, Mr. Chairman, that more work needs to be done in 
the areas that have been raised. They are legitimate concerns. 
I don't think it is a Republican or a Democratic concern. I 
think they are concerns that we need to build in solutions so 
that they are addressed.
    And I think that then the promise that is being spoken of 
here today about 5G will be kept. Otherwise we are going to 
have another new generation but plagued with the same issues 
that we keep talking about.
    So thank you. And I thank you for your patience in giving 
me extra time.
    Mr. Lance. Thank you very much.
    The chair now recognizes the gentleman from Pennsylvania, 
Mr. Costello.
    Mr. Costello. Thank you.
    Could all of you share a little bit about WiFi enabled by 
unlicensed spectrum and what role that may play in the 5G 
world?
    Mr. Pearson. Well, if you look at the standard in what they 
are going to be doing in 5G, they are actually including 
unlicensed spectrum in the 5G.
    Now, when you start specifically, you say WiFi, well, WiFi 
is actually integration--has integration capabilities right now 
with LTE. There is also LTE in a license, again separate from 
WiFi.
    So all of these things are being done for basically to 
provide the consumer the best experience they can. Sometimes it 
is anchored with what would be LTE today and at some point 
would be 5G. Sometimes it is specifically unlicensed, which 
would be only WiFi. And other times it is actually another type 
of aggregation tool of interoperating. But it is usually one or 
the other.
    Mr. Bazelon. WiFi is a very important access technology, 
and unlicensed spectrum is very important to allow for that. 
And there is clearly a lot of demand for it. And it should be 
something that grows. Whether or not it ends up being actually 
integrated in with the commercial mobile networks I think is 
just an open question.
    Mr. Adelstein. Some of the high frequency spectrum that is 
being set aside is being set aside for unlicensed use, and that 
allows for individuals to use that to offload some of the 
demand that is going on in the broader networks that are being 
designed by the cellular industry. So it is very helpful to 
have unlicensed and licensed in a proper balance.
    Ms. Santosham. I am going to defer to my colleagues here 
who know much more about the issue than me.
    Mr. Broecker. Same.
    Mr. Costello. We have heard a lot about State and local 
impediments to the deployment of wireless infrastructure. Is 
the same true for next-generation wireline infrastructure?
    Mr. Adelstein. Well, fiber is a major part of 5G. I mean, 
5G really can't function to its highest potential without fiber 
because of the latency requirements.
    So virtually every one of these little antennas is going to 
have a fiber connection. We are talking about potentially 
millions of antennas, if not hundreds of thousands. The 
estimates range between those. And so you are talking about 
very many antennas close to the end user, all of which require 
fiber connections.
    So impediments to the deployment of fiber are impediments 
to the deployments of 5G. And we do see those. We see those as 
well as--sometimes I think when the antenna gets attached at 
the end there is even more resistance for a number of different 
reasons from localities, even though they provide such a great 
opportunity for consumers and there is so much demand for it.
    So we do need policies, such as Dig Once, that allow for a 
fiber deployment to take place rapidly, because I think we are 
going to see another huge build-out of fiber in the United 
States preparing for 5G.
    Mr. Costello. So your testimony is that wireline equipment 
does also face delays in permitting and access to rights of 
way?
    Mr. Adelstein. It certainly does, yes.
    Mr. Costello. I have one more question. Can you, Mr. 
Adelstein, share with me your familiarity with the way that 
spectrum transactions between various companies and the need to 
be able to do through like kind exchange?
    Mr. Adelstein. The FCC has done a very good job of allowing 
for a very fluid secondary market in spectrum, and they readily 
approve transactions that are within the caps that they have 
placed that are informal. They can go beyond that if they have 
to. So they have really done a great job on a bipartisan basis 
and under both administrations of allowing for a very fluid 
secondary market.
    I mean, our concern right now is getting more spectrum into 
market. And the issue is with 5G, you have understood there is 
this bill that is needed to get it done. Because we would like 
to see by December 2018 the opportunity for the FCC to hold an 
auction of these high frequency bandwidths. And if it is 
possible the chipsets will be ready by then, the equipment will 
be ready, the standards will be in place. So if we can get the 
Guthrie-Matsui bill through that would pave way for even more 
high frequency spectrum that could then be put into that mix.
    Mr. Costello. Good. Thank you. I yield back.
    Mr. Lance. Thank you very much, Congressman Costello.
    Does anyone else on the committee wish to ask further 
questions?
    Seeing there are no further questions from members, I thank 
our witnesses for being here today. It has been a very 
informative panel by a distinguished group of guests.
    Before we conclude, I ask unanimous consent to enter the 
following letters into the record.
    The recently released white paper from the Brattle Group.
    [The information appears at the conclusion of the hearing.]
    Mr. Lance. A letter from Mayor Kevin Davis of Hardin 
County, Tennessee.
    [The information appears at the conclusion of the hearing.]
    Mr. Lance. And thank you, Dr. Bazelon, for the white paper.
    Ms. Eshoo. Mr. Chairman?
    Mr. Lance. Yes.
    Ms. Eshoo. May I just add my best wishes to everyone here--
I know the committee is all gone, but in absentia--for a 
wonderful Thanksgiving. We have much to be grateful for in our 
great and good country. So happy Thanksgiving.
    Mr. Lance. Thank you, and I share that sentiment. And among 
the major holidays it is my favorite holiday because it is the 
traditional American holiday.
    And to all in the audience, I certainly agree with 
Congresswoman Eshoo.
    Pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record. And I ask that witnesses submit their responses within 
10 business days upon receipt of the questions.
    Seeing no further business before the subcommittee today, 
without objection, the subcommittee is adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
